CERTIFICATE OF COMPLIANCE
NO.
ROBERT R. SNYDER, Pro Se
Petitioner,
vs.
THE STATE OF CALIFORNIA
Respondent.

As required by Supreme Court Rule 33.1(h), I certify that the
petition for a writ of certiorari contains, 4,590 words, excluding
the parts of the petition that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on September 22, 2020

Mary E. Guerrero Snyder,
(mother of petitioner)

22

CERTIFICATE OF COMPLIANCE
WITH RULE 14
Petitioner here made every effort to comply
with the standards and restrictions governing
content, according to the Supreme Court Rule 14.
To the best of petitioner’s knowledge, this motion for
rehearing is both formally and procedurally correct.
Petitioner believes that the contents of the above
document will show this motion is presented in good
faith, as it is a fact that petitioner and other
similarly situated EOP prisoners are in need of relief
and that it is certainly not for the purpose of delay.

VERIFICATION
I am the petitioner in this action. All of the
alleged facts are true to the best of my knowledge
and beliefs. This document was written in good faith
and with respect to the penalty of perjury. Both of
the above Dated: 09/ 04 /2020
Respectfully submitted,
') liJjtost.

Robert R. Snyder,
Petitioner in Pro Se

